     Review of the Systems Development Life Cycle for End-User Computing
                      Report No. 03-10, September 8, 2003

                                     INTRODUCTION


This report presents the results of the Office of Inspector General’s (OIG) review of the
systems development life cycle for end-user computing at the Railroad Retirement
Board (RRB).

Background

The RRB administers comprehensive retirement/survivor and unemployment/sickness
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and Railroad Unemployment Insurance Act (RUIA). These programs provide
income protection to railroad workers and their families during old age and in the event
of disability, death, temporary unemployment, or sickness. The RRB paid over $8.8
billion in benefits during fiscal year (FY) 2002.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity; and the end-user
computing system, which supports the agency’s local and wide area networks.
Software applications in the end-user computing environment are accessed through
personal computers connected to the agency’s local and wide area networks.

The systems development life cycle is an essential component of information
technology governance and helps ensure that new applications are adequately
controlled and address the needs of the RRB. The principle phases of the life cycle are:

      •   Project Definition,
      •   Requirements Definition,
      •   Design,
      •   Coding,
      •   Testing, and
      •   Implementation.

The General Accounting Office (GAO) has issued standards specific to information
systems development which include the documentation of requirements, authorizations
for undertaking projects, reviews and testing, and approvals before placing systems into
operation. The Office of Management and Budget (OMB) has also instructed agencies
to apply National Institute of Standards and Technology (NIST) guidelines to achieve
adequate security over Federal computer systems.

The RRB has published internal procedures for the development of new applications,
including Administrative Circular IRM-10, “End-User Computing: Network and
Microcomputer (PC) Management,” dated September 3, 1998; Administrative Circular
IRM-11, “Security for Automated Information,” dated June 17, 1994; and the ADP
Standards. These procedures provide guidance regarding each phase in the systems
development life cycle and establish control requirements to support the confidentiality,
integrity, and availability of the information processed in the applications under
development.

In general, the RRB’s user bureaus initiate the development of new applications by
forwarding a request to the Bureau of Information Services (BIS). BIS’ E-Government
Services section and representatives from the user bureaus cooperate throughout all
phases of the development process.

The RRB’s Office of Programs coordinates services to applicants and beneficiaries of
the RRA and RUIA programs, and more than half of agency employees are assigned to
that organization. The Office of Programs, as the largest of the agency’s component
organizations, submits the greatest number of requests for new computer applications
and maintains a staff of system analysts to work with BIS program developers
throughout the systems development life cycle.

The RRB has established the development of a sound and integrated information
technology architecture as a strategic element of its larger objective to use technology
and automation to foster fundamental changes that improve the way the agency does
business. This audit directly supports this agency objective and will contribute to the
annual OIG security evaluation mandated by the E-Government Act of 2002 (Public Law
107-347), Title III, the Federal Information Security Management Act of 2002.

Objectives, Scope, And Methodology

The objectives of this review were to assess:

   •	 the adequacy of the RRB’s methodology for the development and maintenance
      of end-user computing applications; and
   •	 the effectiveness of the RRB’s efforts in incorporating security requirements into
      the systems development life cycle.

In order to accomplish our objectives, we:

   •   reviewed applicable laws, regulations, NIST guidance, and RRB procedures;
   •   interviewed agency personnel responsible for systems development; and
   •	 tested a non-random sample of 17 systems development projects for compliance
      with applicable RRB policy and procedure, and external authoritative sources
      such as NIST.

We selected the sample from a universe of 72 end-user computing development
projects, started or completed during FY 2002 and FY 2003, as identified by BIS and
Office of Programs-Policy and Systems. Because BIS could not provide a complete
inventory of projects, the universe may not have been all-inclusive. The 17 sample
items were selected judgmentally by eliminating service requests that appeared to be
routine maintenance or of such limited scope that their execution would not be
representative of the systems development life cycle. Sixteen of the 17 projects
reviewed had been requested by the Office of Programs.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objectives. Fieldwork was conducted at RRB
headquarters during October 2002 through June 2003.

                                RESULTS OF REVIEW 


In general, our review disclosed that the RRB does not have an adequate methodology
for the development and maintenance of end-user computing applications; and the
agency’s efforts to incorporate security requirements into the systems development life
cycle have not been effective. Specifically, the lack of a comprehensive life cycle
methodology for the end-user computing environment has manifested itself in the
following weaknesses:

   •   the agency does not have an effective project management program;
   •	 the consideration of security is not fully incorporated into the systems
      development life cycle;
   •   authorization of new systems prior to implementation has not been ensured; and
   •	 the testing and problem resolution phase of the life cycle is not comprehensive, is
      too informal and is poorly documented.

Management has agreed to take corrective action in response to all of the OIG’s
findings. However, BIS disagreed with our recommendation for development of a
formal certification and accreditation process stating that the issue of non-compliance
with existing procedures should be addressed, and describing their planned actions.

The details of our findings and recommendations for corrective action follow. The full
text of management’s response is presented as an appendix to this report.

Project Management Needs Improvement

Internal control over systems development in the end-user computing environment has
been undermined by the lack of an effective project management system and the
absence of a quality assurance program.

Internal control comprises the plans, methods, and procedures used to meet missions,
goals and objectives. Internal control, which is synonymous with management control,
assists managers in achieving desired results through effective stewardship. The
RRB’s basic requirements for project management, as set forth in IRM-10, include
preparation of a work plan that includes cost and resource estimates. Additional
authorizations and analyses may be required for major projects based on the cost and
resource requirements developed during the planning phase of the project.

During this review, BIS was unable to respond to auditor requests for an inventory of its
workload, the status of project development and the staff resources expended to date.
Our detailed review of 17 end-user computing projects indicates that the systems
development life cycle is marred by a lack of documentation for critical activities. Our
review disclosed:

   •	 Nine projects that were not supported by a general work plan detailing required
      tasks and staff resources;
   •   12 projects that lacked cost estimates; and
   •   two projects for which reliable estimates of staff time invested were not available.

During our review, we identified a major project that had not been submitted to the
Information Technology Steering Committee (ITSC) for approval even though the work
had progressed beyond the stage at which one would have expected such approval to
be obtained. File evidence indicates that the project was expected to exceed the 1,000
staff hour threshold that mandated ITSC approval; however, no formal estimate of staff
resources had been developed.

We also noted that the rationale for merging two new, smaller projects into an existing
major project was not adequately documented, and that the paper trail of accountability
for project authorization is undermined by procedures that often result in conflicting
documentation.

The systems development life cycle for the end-user computing environment is not
supported by a fully implemented project management system, manual or automated,
that identifies major process steps, triggers required actions, or records expenditures of
staff time. In addition, BIS has not implemented a quality assurance program to identify
non-conformances in the execution of existing procedural requirements. In April 2003,
BIS published procedures for a limited quality assurance program. These procedures
are not sufficiently comprehensive with respect to existing standards and the program
as currently implemented does not include a back-end review of compliance with
agency standards and procedures.

As a result of the lack of a comprehensive project management system and quality
assurance program, the efficiency and effectiveness of the systems development life
cycle has not been ensured.
Recommendations

We recommend that BIS:
   1. procure and install a new project management system;
   2. 	 implement a means to track the number of projects, the status of each project
        and the staff hours invested for projects under development until a new project
        management system is operational;
   3. 	 assess the feasibility of implementing a more comprehensive quality assurance
        function;
   4. 	 implement the quality assurance program as presently designed including a
        back-end review for compliance; and
   5. 	 implement a control to ensure that requests for ITSC approval are submitted
        timely.

Management’s Response

Management agrees and plans corrective action in response to each of the five
recommendations. BIS reports having completed requirements and selection of a
replacement project management tool; however, procurement is dependent on the
availability of funding. In addition, they plan to implement controls to track project status
and ensure that ITSC approvals are secured when required until a new project
management system is operational.

BIS has agreed to study the scope and requirements of a more comprehensive quality
assurance function and assess the appropriate level of staff and tools needed. They
will then make appropriate recommendations and proceed accordingly.

BIS has advised that they are incorporating architecture and capital planning investment
compliance controls into the systems development life cycle in a staggered manner.
They are currently performing analysis on how they might implement additional reviews,
including a post-implementation review.

Security Has Not Been Integrated Into the Systems Development Life Cycle

Existing procedures and controls are not adequate to ensure the consideration of
security in systems developed for the end-user computing environment in accordance
with existing agency requirements as set forth in IRM-11. In addition, the RRB has not
implemented a risk-based approach to authorization. We attribute these weaknesses to
the lack of a comprehensive certification and accreditation process. As a result, new
systems exhibit a lack of applied audit trails, weak authentication methods and poor
access controls.

Our sample included two systems that were implemented without adequate access
restrictions. The developer of one system in our sample retained post-implementation
responsibility for some tasks that required him to access production data. Proper
separation of duties mandates that system developers work only outside of the
production environment.

We also identified a system that had been implemented using shared user identification
and password. Responsible management advised that this practice is contrary to
agency policy; however, we were unable to identify formal standards or procedures
communicating such a restriction.

Non-Compliance with Existing Agency Procedure

Controls are not adequate to ensure compliance with existing agency procedure as set
forth in IRM-11.

IRM-11 requires the organizational unit requesting the systems development project to
complete Form G-402, “Security Profile for Automated Application,” or its equivalent.
Form G-402 documents who is responsible for the security of each automated
application, the sensitivity levels of the information handled by the application, and the
control techniques that have been implemented to protect the information.

The 17 projects reviewed during our audit included 13 projects that had progressed to a
stage at which the consideration of system security should have been documented.
Our review disclosed:

    •	 ten projects that had been placed into operation for which Form G-402, or an
       equivalent document, had not been prepared;
    •   four of the ten projects had no documented consideration of system security; and
    •	 security control weaknesses exist in four of the ten projects that had been
       implemented without execution of Form G-402, or an equivalent.

The OIG previously identified the inadequacy of control over the preparation of Form
G-402 in connection with the development of mainframe computer systems and
recommended that BIS develop a control to ensure the timely execution and
maintenance of Form G-402.1 Accordingly, no additional recommendation for corrective
action is offered at this time.

Authorization Levels Are Not Commensurate With Risk

The RRB has not established an authorization policy that assigns responsibility for pre-
implementation authorization of systems development projects based on risk.



1
 “Review of Information Security at the Railroad Retirement Board,” OIG Audit Report # 02-04, February
5, 2002.
In a risk-based approach to the systems development life cycle, higher levels of
management authorize implementation of those projects that pose the greatest risk.
The assessment of risk is key to placing accountability for implementation at an
appropriate level within the organization. Typically, the greatest risk is associated with
major applications and the systems with which they interface or exchange data.

Current agency procedure does not assign any authorization responsibilities to
management level employees. Typically, user analysts who have been involved in a
project’s development and testing authorize implementation of completed systems on
behalf of that organization. Some of these authorizations were offered informally,
signatures were not always captured, and some had been transmitted by electronic
mail.

RRB Lacks a Certification and Accreditation Program

Current RRB procedures are not consistent with trends in systems development which
call for implementation of a formal certification and accreditation program that places
responsibility for the acceptance of system security risk with higher levels of
management.2

Certification is the comprehensive evaluation of the management, operational and
technical security controls in an information system. Accreditation is the formal
declaration of a management official that a system has been approved to operate at an
acceptable level of risk. Through the accreditation and certification process,
responsible management formally acknowledges responsibility for both system security
and future accountability for any adverse impacts resulting from breaches of security.

OMB has highlighted the importance of the certification and accreditation process by
requiring Federal agencies and their Inspectors General to report on the number of
systems that have been certified and accredited.

IRM-11 places responsibility for documenting the consideration of system security with
system users and developers. However, the RRB has not formalized the consideration
of system security in a comprehensive certification and accreditation process.

Recommendation

    6. We recommend that BIS develop a formal certification and accreditation process.

Management’s Response

Management disagrees with the recommendation for a “formal” certification and
accreditation process. BIS responded that, rather than develop new or changed
procedures, the issue of non-compliance with existing procedures should be addressed.

2
 NIST is currently circulating draft standards for Federal certification and accreditation programs that
specify “a senior agency official” as the appropriate level of management (NIST SP 800-37).
They plan to monitor NIST’s distribution of standards and guidelines related to the
certification and accreditation process. As these standards and guidelines become
final, they will review them and consider whether a formal certification and accreditation
process is needed.

BIS acknowledges that security control weaknesses found in applications that have
been implemented without documented security profiles indicate that security controls
were not considered and additional management controls are needed. They plan to
issue revised procedures and designate an information system security officer for each
major application and general support system.


Authorization Prior to Implementation Has Not Been Ensured

Internal control is not adequate to ensure that all systems will be properly authorized
prior to implementation.

Current RRB procedure requires user testing and acceptance prior to implementation of
new systems and system modifications. Form G-872, “Sign-off Sheet,” is used by an
authorized reviewer to accept or reject a final project. Form G-905, “Request to Install
Software onto Server,” is used to document authorization for installation of software, the
person responsible for the installation, and the date that installation took place.

The ten projects in our sample that had been placed into operation included one project
that had been placed into production without user testing and acceptance, and for which
Form G-905 authorizing the software installation had not been prepared. It also
appears that the system developer installed the application software, contrary to agency
procedure calling for adequate separation of duties.

We also observed that two projects had been placed into production prior to formal
acceptance by the user organization, and an additional seven projects for which Form
G-905 had not been prepared.

RRB personnel have not followed existing procedures regarding the testing,
acceptance, and authorization of projects prior to implementation. Additionally, RRB
personnel have not documented all end-user computing installations. In the absence of
adequate controls to ensure compliance with agency requirements, unauthorized
systems or systems that do not meet the user’s needs may become operational.
Recommendations

We recommend that BIS:

   7. 	 implement a control to ensure all projects are tested, accepted and authorized by
        the user organization prior to installation; and
   8. 	 implement a control to ensure that the installation process is properly
        documented and executed only by authorized individuals.

Management’s Response

Management agrees and plans to implement a control to ensure that applications have
been tested, accepted and authorized by the user organization before BIS supervisors
authorize installation of applications and that the installation process is properly
documented and executed only by authorized individuals.

Testing and Problem Resolution Needs Improvement

Execution of the testing and problem resolution phase of systems development in the
end-user computing environment is not comprehensive, too informal, and not
adequately documented. As a result, flawed systems may be placed into production.

Current RRB procedures require pre-implementation testing of all systems. Users and
developers are required to develop a testing plan that addresses predetermined
conditions derived from the program specifications and requirements document. The
expected test outcomes should be defined within the plan and compared to actual test
results. System developers are required to correct problems identified during the
testing phase. System users are required to test and formally accept the software prior
to installation.

The RRB has no controls in place to ensure that:

   •   test plans are properly developed and executed;
   •   problems are identified and addressed; and
   •	 documentation supporting the testing and problem resolution process is
      maintained for subsequent review.

Our sample of 17 system development projects included 10 that had been completed
and placed into production and one project undergoing pre-implementation testing.
RRB personnel had not maintained test documentation and/or test plans for seven of
the 11 projects. The four test plans that had been developed and submitted for review
did not meet established agency requirements because they were incomplete. We also
observed that the resolution of problems identified during testing was not formally
controlled for three projects, including one for which the BIS developer did not return the
correction to the user for verification and acceptance prior to implementation.
Our review identified one system that incorrectly computes certain estimated
timeframes that are provided to annuitants concerning benefit changes under the
Railroad Retirement and Survivors’ Improvement Act. Pre-implementation testing
performed by the Office of Programs did not disclose the calculation error because
many possible input conditions were not tested. In that same project, test
documentation of screen layouts differs from the layouts that are currently in production,
indicating that changes were made after testing or that test documentation was not
maintained.

As a result of weaknesses in the testing and problem resolution process, the RRB is at
increased risk of implementing systems that produce inaccurate results and that may
not meet the user’s needs. In addition, the lack of documentation deprives the agency
of a starting point for the oversight of system security in a comprehensive certification
and accreditation process.

Recommendations

We recommend that:

   9. 	 the Office of Programs implement a control to ensure user testing is fully
        documented, including complete test plans and results; and
   10. BIS implement a control to ensure developer testing is fully documented,
       including complete test plans and results.

Management’s Response

Management agrees. The Office of Programs plans to provide additional training to
their analysts. BIS plans to address issues specific to developer testing during their
ongoing process of modifying the current system development life cycle to allow for
methodologies specific to e-government solutions.
